OIG Audit Report GR-40-07-004

Compliance with Standards Governing Combined DNA Index System Activities at the Richland County Sheriffs Department DNA Laboratory, Columbia, South Carolina

Audit Report GR-40-07-004


May 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Richland County Sheriff’s Department Laboratory (Laboratory).1  The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes.2  The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level. NDIS became operational in 1998 and is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. DNA profiles originate at the local level, flow upward to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.
 The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.3 
 The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities. Specifically, we performed testing to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratory’s DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the Laboratory was in compliance with the standards governing CODIS activities with some exceptions. Specifically, we noted the following.

NDIS terminals were not physically secured from unauthorized personnel as required by the MOU. The Laboratory keeps terminals in an office space behind a key-lock door left unlocked during the workday. The office is shared by the DNA staff and other law enforcement staff. Any person with access to the general building area could enter the office space without restriction and approach the NDIS terminals.
The Laboratory had uploaded four forensic profiles into the State DNA Index System (SDIS) and the profiles were subsequently uploaded into NDIS, but the profiles were unallowable for NDIS. One of the profiles was not from crime scene evidence. The sample was taken from a suspect’s car not associated with the crime scene. Another profile violated the four-by-four rule.4  The profile had 10 loci with 3 alleles.5  The other two profiles were for unknown females even though all the suspects were male and both victims were females. All of the profiles were removed from NDIS during our audit.

We made three recommendations to address the Laboratory’s compliance with standards governing CODIS activities, which are discussed in detail in the Findings and Recommendations section of the report. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable. In addition, we requested a written response to a draft of our audit report from the Laboratory and the FBI. The Laboratory’s response is included as Appendix III and the FBI’s response is included as Appendix IV. 



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
Pub. L. No. 103-322 (1994)
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual. This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS. For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.
The four-by-four rule in the NDIS operational procedures states that forensic mixture DNA profiles submitted to NDIS shall have up to four alleles at a maximum of four core loci, any of the remaining nine core loci shall have no more than two alleles at each locus. 
An allele is defined as one of two or more alternative forms of a gene or genetic marker on a chromosome. Loci, which is the plural form of locus, is the specific location of a gene or genetic marker on a chromosome.








Return to OIG Home Page